Supreme Court, U.S.
FILED

WAIVER

MAY 2 8 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-1308

Bernard Morello, et al.

v.

Seaway Crude Pipeline Company, LLC

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
04~11 ' arreistf/t
e
Signature
Date-

Wednesday, May 27, 2020

(Type or print) Name

Thomas J. Forestier
0 Mr. 0 Ms.

Firm

Winstead PC

Address

600 Travis Street, Suite 5200

City & State
Phone

❑ Mrs. 0 Miss

Houston, Texas

713-650-2749

Zip
Email

77002

tforestier@winstead.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUTRED.

RECEIVED
CC: Jacqueline Lucci Smith

JUN 2- 2020
THE CLERK

SUPREMEFCOURT, U.S.

LWIISSTEAD

Austin I Charlotte I Dallas I Fort Worth I Houston I San Antonio I The Woodlands

1100 JP Morgan Chase Tower

713.650.8400

OFFICE

600 Travis Street

713.650.2400

FAX

Houston, TX 77002

winstead.com

May 28, 2020
Thomas J. Forestier
direct dial: (713) 650-2749
tforestier@winstead.com

VIA FEDEX
Office of the Clerk
Supreme Court of the United States
Washington, DC 20543-0001

Re:

No. 19-1308; Bernard Morello and White Lion Holdings, L.L.C. v. Seaway Crude
Pipeline Company, LLC; In the Supreme Court of the United States, on Appeal
from the Supreme Court of Texas (No. 19-0017)

Dear Clerk:
I am counsel of record for respondent Seaway Crude Pipeline Company, LLC in the
above-captioned matter, Supreme Court Case No. 19-1308. Please see the attached Waiver
form, which is to be filed in this matter. A copy of the attached Waiver form has been served on
Petitioners' counsel by electronic mail.

Sincerely,
/s/ Thomas J. Forestier
Thomas J. Forestier
Counsel for Respondent Seaway Crude
Pipeline Company, LLC
Enclosure

RECEIVED
JUN 2- 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.
WINSTEAD PC I ATTORNEYS

